                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: 112070052                                                                  Page 1 of 1



         An NSF Program Manager' (PM) was contacted by a Principal Investigator2 (PI) regarding
         concerns about an SBIR Phase I award 3 • We interviewed the PI and determined the allegations
         were unsubstantiated.

                   Accordingly, this case is closed.




NSF OIG Form 2 (11 /02)
